Troutman Pepper Hamilton Sanders LLP
3000 Two Logan Square, Eighteenth and Arch Streets
Philadelphia, PA 19103-2799
troutman.com
Michael E. Baughman
Michael.baughman@troutman.com

July 22, 2020
VIA ELECTRONIC FILING AND FEDERAL EXPRESS
Hon. Scott S. Harris, Clerk of Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Dear Mr. Harris:
I represent Respondent Michigan State University Board of Trustees (MSU) in the abovereferenced case. The Petition for Writ of Certiorari was docketed on July 10, 2020, and MSU’s
Brief in Opposition is due on August 10, 2020. I respectfully request a 30-day extension of time
in which to file a Brief in Opposition to the Petition.
An extension is necessary because the attorneys who represent MSU in this matter, including
myself, have substantial professional commitments over the next several weeks, complicating
our ability to prepare a thorough Brief in Opposition to the Petition. These commitments include
briefing deadlines in matters pending in the United States Court of Appeals for the Ninth Circuit,
and in several United States district courts.
Accordingly, I respectfully request a 30-day extension of time to file a Brief in Opposition to the
Petition.
Respectfully submitted,

Michael E. Baughman
Cc:

Daniel Roy Ortiz, Esquire
Alexander S. Zalkin, Esquire
Misha Tseytlin, Esquire

